UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

Office of the General Counsel

August 20, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First St. N.E.
Washington, D.C. 20543
Re: No. 19-508, AMG Capital Management, LLC v. Federal Trade Commission &
No. 19-825, Federal Trade Commission v. Credit Bureau Center, LLC
Dear Mr. Harris:
In accordance the Court’s Rule 37.3(a), the Federal Trade Commission grants blanket
consent to the filing of amicus curiae briefs in the above-listed cases in support of either or of
neither party.
Sincerely,
/s/ Alden F. Abbott
Alden F. Abbott
General Counsel
cc: Jeffrey Lamken, Counsel of Record for Petitioners in No. 19-508
Neal Katyal, Counsel of Record for Respondents in No. 19-825

